<html>
<title> - DRUG AND VETERANS' TREATMENT COURTS: SEEKING COST-EFFECTIVE SOLUTIONS FOR PROTECTING PUBLIC SAFETY AND REDUCING RECIDIVISM</title>
<body><pre>[Senate Hearing 112-179]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-179

 DRUG AND VETERANS' TREATMENT COURTS: SEEKING COST-EFFECTIVE SOLUTIONS 
               FOR PROTECTING PUBLIC SAFETY AND REDUCING 
                               RECIDIVISM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON CRIME AND TERRORISM

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2011

                               __________

                          Serial No. J-112-34

                               __________

         Printed for the use of the Committee on the Judiciary








<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-696 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

                  Subcommittee on Crime and Terrorism

               SHELDON WHITEHOUSE, Rhode Island, Chairman
HERB KOHL, Wisconsin                 JON KYL, Arizona
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
CHRISTOPHER A. COONS, Delaware
                Stephen Lilley, Democratic Chief Counsel
               Stephen Higgins, Republican Chief Counsel
















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coons, Hon. Christopher A., a U.S. Senator from the State of 
  Delaware, prepared statement...................................    52
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     2
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     1

                               WITNESSES

LaFazia, Jeanne E., Chief Judge, Thode Island District Court, 
  Providence, Rhode Island.......................................    16
Marlowe, Douglas B., Chief of Science, Law & Policy, National 
  Association of Drug Court Professionals, Alexandria, Virginia..    18
Muhlhausen, David B., Research Fellow in Empirical Policy 
  Analysis, Center for Data Analysis, The Heritage Foundation, 
  Washington, DC.................................................    20
Sheen, Martin, Los Angeles, California...........................    14
Tucker, Benjamin B., Deputy Director of State, Local and Tribal 
  Affairs, Executive Office of the President, Office of National 
  Drug Control Policy, Washington, DC............................     4

                         QUESTIONS AND ANSWERS

Responses of Douglas B. Marlowe to questions submitted by Senator 
  Sessions.......................................................    30
Responses of Benjamin B. Tucker to questions submitted by 
  Senators Sessions and Blumenthal...............................    35

                       SUBMISSIONS FOR THE RECORD

Abrahamson, Daniel N., Director of Legal Affairs, Drug Policy 
  Alliance, Washington, DC, statement............................    45
LaFazia, Jeanne E., Chief Judge, Thode Island District Court, 
  Providence, Rhode Island, statement............................    53
Holahan, John L., Judge, State of Minnesota, Fourth Judicial 
  District Court, Minneapolis, Minnesota, statement..............    60
Marlowe, Douglas B., Chief of Science, Law & Policy, National 
  Association of Drug Court Professionals, Alexandria, Virginia, 
  statement......................................................    62
Muhlhausen, David B., Research Fellow in Empirical Policy 
  Analysis, Center for Data Analysis, The Heritage Foundation, 
  Washington, DC, statement......................................    70
New York Times, Erica Goode, article.............................    82
O'Donnell, Denise E., Director, Bureau of Justice Assistance, 
  Office of Justice Programs, Washington, DC, statement..........    89
Sheen, Martin, Los Angeles, California, statement................    95
Tucker, Benjamin B., Deputy Director of State, Local and Tribal 
  Affairs, Executive Office of the President, Office of National 
  Drug Control Policy, Washington, DC, statement.................    99

 
 DRUG AND VETERANS' TREATMENT COURTS: SEEKING COST-EFFECTIVE SOLUTIONS 
          FOR PROTECTING PUBLIC SAFETY AND REDUCING RECIDIVISM

                              ----------                              


                         TUESDAY, JULY 19, 2011

                                       U.S. Senate,
                       Subcommittee on Crime and Terrorism,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Subcommittee met, pursuant to notice, at 10:31 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Sheldon 
Whitehouse, Chairman of the Subcommittee, presiding.
    Present: Senators Whitehouse, Kohl, Klobuchar, Franken, 
Coons, and Blumenthal.

 OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, A U.S. SENATOR 
                 FROM THE STATE OF RHODE ISLAND

    Chairman Whitehouse. The hearing will come to order.
    This morning's hearing will consider an important and 
growing component of our Nation's criminal justice system. 
There are over 2,500 drug courts in our country operating in 
every State and territory. Many jurisdictions, including my 
home State of Rhode Island, also are developing veterans' 
treatment courts. Today's hearing will closely examine these 
intervention and treatment courts and the role they can play as 
cost-effective solutions for protecting public safety and 
reducing recidivism.
    As many in the audience know, a drug court is a specially 
designed calendar or docket that addresses the case of 
nonviolent drug offenders. These courts require participants to 
commit to intensive substance abuse treatment programs 
generally for a year or more. Drug courts hold participants 
accountable through frequent court appearances and regular 
random drug testing for drug use. Individuals going through 
drug courts are rewarded for doing well, but sanctioned if they 
do not satisfy their obligations.
    They have worked in my home State of Rhode Island. As the 
Rhode Island Attorney General, I worked to establish our 
State's first drug court. We now have ten drug courts operating 
in our State.
    Drug courts take many forms, but a consistent element in 
their success is the close cooperation of many players in the 
criminal justice system, including judges, prosecutors, law 
enforcement, defense attorneys, probation or corrections 
officers, and the community at large, including mentors, 
treatment organizations, and counseling services. This 
cooperation and support is bipartisan, and it even reaches as 
far as Capitol Hill. I was pleased, for example, to join with 
Senator Thad Cochran this morning and Representative Shelley 
Berkley at an event in the warmer outside weather today.
    Drug courts have been in operation in the United States for 
over 20 years. Veterans' courts are a more recent phenomenon, 
first launched in 2008 in Buffalo, New York. Like drug courts, 
veterans' treatment courts are special judicially supervised 
court dockets that provide directed services to a particular 
set of offenders. They respond to the fact that many veterans, 
who have sacrificed so much for our country, return from combat 
suffering from post traumatic stress disorder or other trauma 
that can adversely affect their behavior. Veterans' courts work 
to identify and address the underlying causes of this behavior 
by referring veterans to treatment programs or providing other 
alternatives that can keep them out of jail while protecting 
public safety. Whether functioning within a drug court system 
or based on a drug court model, these courts team with the VA 
health system, volunteer mentors, and veteran support 
organizations to assist veterans in resuming successful roles 
in our communities. There are now at least 50 veterans' courts 
in operation around the country, with dozens more being 
planned.
    Last month, I had the great pleasure and privilege of 
welcoming Attorney General Eric Holder and Assistant Attorney 
General Laurie Robinson to Rhode Island for a roundtable 
discussion focused on the pilot program serving veterans in our 
State. I came away from that discussion deeply impressed by the 
hard work, thoughtful planning, and extensive community 
participation that has gone into that project. I am glad that 
we will later be welcoming Chief Judge LaFazia of Rhode 
Island's district court, who is leading the veterans' pilot 
program and will tell the Senate about our State's important 
work in this area.
    As my colleagues know, the budget constraints confronting 
our Federal, State, and local governments demand that we 
marshal the resources we devote to our criminal justice system 
as effectively as possible. Today's hearing will allow Congress 
to consider the role of drug and veterans' courts in such smart 
and cost-effective criminal justice solutions.
    I thank the witnesses for joining us today, and I look 
forward to working with Senators on both sides of the aisle as 
we continue to support these cost-effective solutions that 
protect our communities.
    I am now delighted to welcome the distinguished junior 
Senator from Minnesota, who is a honorary member of this 
Subcommittee, to make a few opening remarks and to join the 
hearing.

STATEMENT OF HON. AL FRANKEN, A U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Franken. Well, thank you, Mr. Chairman, for calling 
this very important hearing, and you are right. I am not 
actually a member of this Subcommittee, but in the Judiciary 
Committee every member of the Committee is invited to attend 
each Subcommittee's hearings, and I wanted to be here because 
the effectiveness of drug courts and veterans' courts is such a 
great new development. And I am a strong supporter of these 
problem-solving courts, and I believe we should be doing 
everything we can to promote these programs, which are 
extremely fiscally responsible. And as we have the debate over 
our budget, I think it is very important that we understand how 
cost-effective these courts are.
    First I wanted to take a moment to recognize and welcome 
Judge Robert Rancourt, who is attending. He is not testifying 
in this hearing today, but he is attending. He is from Chisago 
County, Minnesota, and I just learned that he is the incoming 
Chairman of the board of directors of the National Association 
of Drug Court Professionals, and I want to congratulate Judge 
Rancourt, and I am very pleased that you are here joining us 
for today's hearing.
    In 2007, Minnesota adopted statewide drug court standards 
with the goal of enhancing public safety, ensuring participant 
accountability, and reducing costs to society. And I am pleased 
to say that the adult treatment courts, family dependency 
courts, juvenile courts, DWI courts, and our first veterans' 
court are all doing exactly that: helping to prevent future 
crime, getting participants in the treatment that they need, 
and saving money--saving money in the long run.
    Judge John Holahan, who presides over the Hennepin County 
adult drug court, submitted a statement on his program that I 
would like to submit for the record with your approval, Mr. 
Chairman.
    Chairman Whitehouse. Without objection.
    [The information appears as a submission for the record.]
    Senator Franken. He writes that participants in his court 
are subject to intensive probation, breath and urine testing, 
and counseling. They are also required to appear in his court 
every other week to update him on their progress. Judge Holahan 
quotes a letter that he received from the parents of a graduate 
from his drug court who wrote, and I quote, ``Thanks to you and 
the Hennepin County court system, we have our daughter back, 
and she is conquering her addiction to alcohol and drugs. She 
has attended every court session and sees what happens if you 
screw up. Without a program like yours, a lot of young adults 
would not get a second chance and would waste a lot of time in 
jail.''
    I think this statement perfectly sums up how effective drug 
courts can be, and I look forward to hearing more from our 
witnesses about how we can continue to improve and expand the 
success of these great programs.
    So thank you again, Mr. Chairman.
    Chairman Whitehouse. You are welcome, Senator Franken.
    I am delighted to welcome Senator Kohl to the hearing, and 
I will take this opportunity to introduce our first witness. 
Benjamin Tucker is Deputy Director of the Office of National 
Drug Control Policy, overseeing ONDCP's HIDTAs--High Intensity 
Drug Trafficking Areas--Drug Free Communities, and National 
Youth Anti-Drug Media Campaign programs. He has previously 
served in numerous positions in Federal and local government, 
including as Deputy Director for Operations at the U.S. 
Department of Justice Office of Community-Oriented Policing 
Services and with the New York City Police Department. He 
received his B.S. in criminal justice from the John Jay College 
of Criminal Justice and his J.D. from the Fordham University 
School of Law, and we are delighted to have Mr. Tucker with us 
today.
    Mr. Tucker, please proceed. Your entire statement, which, 
if read, would take considerably more than 5 minutes, will be 
made a part of the record so that you can make a shorter 
statement orally here today.

STATEMENT OF HON. BENJAMIN B. TUCKER, DEPUTY DIRECTOR OF STATE, 
 LOCAL AND TRIBAL AFFAIRS, EXECUTIVE OFFICE OF THE PRESIDENT, 
    OFFICE OF NATIONAL DRUG CONTROL POLICY, WASHINGTON, D.C.

    Mr. Tucker. Thank you very much, Senator. Chairman 
Whitehouse, Ranking Member Kyl, and distinguished members of 
the Subcommittee, thank you for this opportunity to testify 
here today on the importance of drug courts. As ONDCP's 
Director for Office of State, Local, and Tribal Affairs, it is 
my job to work closely with our State, local, and tribal 
communities in support of prevention and law enforcement 
initiatives through development of policy and programs.
    I understand how important it is to identify and support 
alternatives to incarceration. Having walked the beat as a New 
York City police officer and having worked in the criminal 
justice field for the past 35 years, it is clear we cannot 
arrest our way out of the Nation's drug problems.
    The Obama administration recognizes that addiction is a 
disease and that prevention, treatment, recovery, innovative 
criminal justice strategies, and law enforcement are all 
essential elements of a comprehensive strategy to reduce drug 
use.
    Just last week, the administration released its 2011 
National Drug Control Strategy. It articulates a balanced 
approach to drug control while identifying and addressing 
issues of concern to specific populations confronting unique 
challenges relating to substance abuse issues, including active 
military service members, veterans, and military families, 
college students, women and children, and those involved in the 
criminal justice system.
    I am here today to discuss one of the administration's 
fundamental policy objectives: stopping the revolving door of 
arrest, incarceration, release, and re-arrest through effective 
interventions and alternatives to incarceration.
    According to a 2007 Justice Department report reflecting on 
the success of drug courts, we know that of the State prisoners 
who were dependent on or abusing drugs, 53 percent had at least 
three prior sentences. These numbers have basically gone 
unchanged since 1997. Drug courts have existed for more than 20 
years, as you indicated earlier, Senator, and their 
effectiveness in reducing recidivism and lowering criminal 
justice costs is well documented.
    With over 2,500 drug courts in operation today in the 
United States, approximately 120,000 Americans annually receive 
the help they need to break the cycle of addiction and crime, 
and the drug court movement continues to grow. They help 
participants recover from addiction and prevent future criminal 
activity while also reducing the burden and cost of repeatedly 
processing drug-involved offenders through the Nation's courts, 
jails, and prisons.
    Drug court participants receive intensive treatment and 
other services for a minimum of 1 year. They are subjected to 
frequent court appearances and random drug testing, with 
sanctions and incentives to encourage compliance and 
completion. But most important, graduating participants gain 
the necessary tools to rebuild their lives and re-enter society 
as productive, law-abiding, taxpaying citizens.
    Drug courts rely upon the daily communication and 
cooperation of judges, court personnel, probation, treatment 
providers, and other social service providers from throughout 
the community. This successful collaboration promotes the 
overarching goal of improving public health and public safety.
    In a recent Department of Justice study, drug court 
participants reported 25 percent less criminal activity and had 
16 percent fewer arrests than comparable offenders not 
enrollled in drug courts.
    In times of serious budget cuts, the drug court model also 
offers State and local governments a cost-effective approach 
when developed and operated within longstanding proven 
standards.
    The success of drug courts has led to the development of 
other specialty courts like veterans' treatment courts, as was 
mentioned, family treatment courts, juvenile drug courts, and 
tribal wellness courts. Veterans' treatment courts are a 
priority for this Administration, and as Americans we must keep 
in mind the enduring debt we owe our country's active-duty 
military and veterans. The serious challenges they face when 
returning home, particularly substance use and psychological 
health problems, often go untreated. Sadly, these challenges 
can sometimes lead to criminal and other destructive behaviors.
    According to a recent Justice Department survey of prison 
inmates, an estimated 60 percent of the 140,000 veterans in 
Federal and State prisons were struggling with a substance use 
disorder, while approximately 25 percent reported being under 
the influence of drugs at the time of their offense.
    There are now over 75 operational veterans' treatment 
courts nationwide, and they are showing significant promise in 
successfully promoting sobriety, recovery, and stability for 
our Nation's veterans. Consistent with drug courts, veterans' 
treatment courts combine rigorous treatment and personal 
accountability with the goal of breaking the cycle of drug use 
and criminal behavior. However, in addition to the traditional 
partners in drug court, they incorporate the unique 
capabilities of Federal and State veterans' services. In doing 
so, they connect veterans' court participants to the treatment 
and support services they need, such as treatment, medical 
benefits, home loans, and other services intended to help 
facilitate their re-entry to the community.
    In conclusion, I would like to take a moment to acknowledge 
and commend our drug court professionals--our judges, our law 
enforcement officers, our treatment providers, and others who 
have dedicated their time and talent to helping others break 
the cycle of drug use and crime to become productive members of 
society.
    Again, thank you, Mr. Chairman, for allowing me to testify 
here today. I look forward to working with you and this 
Committee to address these challenging and important issues, 
and I am happy to answer any questions you may have.
    [The prepared statement of Mr. Tucker appears as a 
submission for the record.]
    Chairman Whitehouse. Thank you, Mr. Tucker.
    First let me welcome Senator Blumenthal of Connecticut to 
the hearing. I appreciate that he has taken the trouble to 
attend. Everybody is very busy now, so people being here is a 
sign of very keen interest.
    Let me ask you about the Federal interest in drug courts. 
In a later panel, we will hear from a witness who says that the 
Federal Government should not bother with this, and that it 
should be left to the States to manage drug courts without 
support from the Federal Government. You have been involved in 
this for a long time. Make the case for a Federal role in 
supporting drug courts around the country.
    Mr. Tucker. Certainly, Senator. First, in terms of my 
experience, as you indicated, I have been involved in this work 
for a long time, and it seems that in any number of programs 
that have been successful, such as drug court programs, over 
the last 20 years, it seems that very often the beginnings of 
those programs, the testings, the demonstration projects that 
give rise to these programs, are usually funded in some cases 
by private dollars, but very often through the interest of the 
Federal Government providing funding, seed money, if you will, 
so that these programs can get traction.
    That is what has happened with drug courts, and while drug 
courts are primarily funded through State and local resources, 
it is definitely in the best interest of the Federal Government 
to continue to support through funding for technical assistance 
and operational support so that our drug courts can continue to 
thrive.
    We have in the country, based on what we know about the 
success of drug courts, the opportunity to change the paradigm; 
that is to say, continuing to arrest offenders who have drug 
problems is not going to be very cost-effective. The notion 
that we can divert these folks and get them out of the system, 
and let us focus on public health and improve public safety at 
the same time as we save funds. For every dollar spent on drug 
courts, we yield $2 in savings for the criminal justice system. 
And so it makes sense financially, it makes sense in terms of 
the comments made earlier about the fact that we have the 
opportunity to give people their lives back.
    And so for all those reasons, the Federal investment and 
the assistance to sustain drug courts and to grow a model that 
we know has merit is the way to go.
    Chairman Whitehouse. Thank you, Mr. Tucker. Let me just add 
that, in addition to your testimony from ONDCP, there is also a 
statement coming in from the United States Department of 
Justice, which will be put into the record, but it was not 
ready in time for this hearing. So the hearing record will 
remain open for 7 days, not only for them, but for anybody who 
would like to submit an additional statement.
    [The Justice Department statement appears as a submission 
for the record.]
    Chairman Whitehouse. I will now turn to my distinguished 
colleague, Senator Kohl.
    Senator Kohl. Thank you very much, Senator Whitehouse, for 
holding this hearing today. Before getting to my questions, I 
would like to say a few words about the excellent work 
Wisconsin is doing in this field.
    Wisconsin has been a model for creating and using treatment 
courts to strike the right balance between holding nonviolent 
offenders accountable for their crime, but also helping them to 
break the cycle in and out of the justice system. Our adult and 
juvenile drug courts, DUI courts, and veterans' courts enjoy 
broad support back home from Democrats and Republicans, law 
enforcement and judges, and local communities. Wisconsin's 41 
treatment courts draw such broad support because they have 
proven successful at reducing recidivism while saving State and 
local governments millions of dollars every year. For example, 
the drug court in rural Wood County has saved county taxpayers 
$400,000 since it began in 2007.
    Wisconsin has also been a leader in the creation of 
treatment courts that focus on drunk drivers. Waukesha County's 
DUI court works with people who have been convicted of their 
third DUI. Under this program, in addition to serving their 
sentence, the judge and mental health counselors work with 
repeat offenders to stay sober and get their lives back on 
track. This program's success has been a model for similar 
courts throughout the country and most recently in Dane County, 
Wisconsin, where Republicans and Democrats are working together 
to implement the DUI court.
    Finally, I am proud of our State's veterans' courts. In 
2008, the State public defender's office and the Wisconsin 
Department of Veterans Affairs led an initiative to bring 
veterans' courts to Wisconsin. Now Wisconsin has six veterans' 
courts, and most recently Brown County is establishing its own 
veterans' courts to serve the Green Bay area. These efforts 
ensure that our vets are treated for the unique challenges they 
face after honorably serving our Nation and I applaud them.
    Mr. Tucker, we know that treatment courts are highly 
effective at saving taxpayer dollars by helping low-level 
offenders stay out of jail and overcome their addictions. State 
and local officials want to expand their treatment court 
programs and get new programs off the ground. In light of 
severe budget constraints at the Federal, State, and local 
levels, how can we work together to maintain the courts we have 
and also start new ones?
    Mr. Tucker. It is really critical, Senator, for the 
collaborations that are really the foundation of the drug 
courts to continue to function and operate, and you are correct 
that the tight budget times I think will test the mettle of our 
drug court professionals in every respect.
    I think the advantage, though, is because drug courts and 
the model bring together law enforcement, social services, 
veterans administrators if it is veterans' courts, probation 
officers, bring a number of people all together to work on 
these issues. And I think having all these folks work together 
in a way where they can focus and keep their own identity in 
terms of the work that they do, but the fact that they can come 
together and collaborate for the purpose of expressly improving 
the public safety and the public health by keeping the drug 
courts vibrant, alive, and focused on keeping people out of the 
system as opposed to putting people in our criminal justice 
process will be very effective.
    It will, no question, be challenging. I think my experience 
has been from law enforcement when money and dollars get tight, 
I think people figure out how to come together when they know 
they have a program and a process that works, and they have to 
struggle to produce results. And so I think that is the 
challenge we face, no question that exists, and we know that 
our treatment providers are going to be strained. Nevertheless, 
the need remains, and I think we need to be focused on how we 
allow that to continue.
    Senator Kohl. Mr. Tucker, as you well know, DUI courts are 
a relatively new effort. What is the ONDCP doing to use the 
successes that we are seeing in DUI courts like in Waukesha 
County, Wisconsin, more broadly throughout the country?
    Mr. Tucker. Well, as you may be aware, Senator, the Office 
of National Drug Control Policy and the National Drug Control 
Strategy, one of its focuses, particularly in the Inaugural 
Strategy, the 2010 strategy, has been on drunk driving. And so 
drunk driving has been recognized as a serious problem across 
the country. It fits, I think, neatly into the connection, the 
nexus with driving under the influence. And so we are doing a 
number of things to sort of move the bar in the area of drugged 
driving in terms of educating drivers, in terms of working with 
organizations to get the word out, to be the bully pulpit, and 
sort of work with law enforcement agencies, drug recognition 
enforcement officers, to ensure that we put the resources where 
they should be--on the roads and focused on individuals, 
identifying individuals who may be driving while under the 
influence.
    And so we are providing resources to improve better ways to 
do roadside testing. We are providing resources to educate more 
police officers, both State law enforcement officers as well as 
local officers, to be aware of and to be able to identify those 
who might be driving while under the influence, if not of 
alcohol then be able to identify those who might be under the 
influence of some other controlled substance.
    Senator Kohl. Thank you very much, Mr. Tucker and Senator 
Whitehouse.
    Chairman Whitehouse. Thank you, Senator Kohl.
    I am delighted that the distinguished senior Senator from 
Minnesota, Senator Klobuchar, has joined us; the Senator from 
Delaware, Senator Coons, has joined us. The order on our side 
is Senators Franken, Blumenthal, Klobuchar, and Coons. Senator 
Franken.
    Senator Franken. Thank you, Mr. Chairman. I noticed that 
former Congresswoman Jim Ramstad is here, and I would like to 
recognize him, too, for his leadership in mental health parity 
and in parity for treatment of addiction.
    Minnesota has been a leader, actually, in addiction 
treatment, and we are very proud of that. And in Minnesota, we 
have seen drug courts do very good things. You talked about 
really return on investment, both in your opening statement and 
your response to Senator Kohl, and part of this is recidivism. 
We have found in Minnesota that participants in drug courts are 
less than half as likely to be arrested for another crime as 
offenders who are prosecuted in traditional courts, and this, 
of course, with equivalent kind of arrests, et cetera. I want 
to know if you are seeing that nationwide, that trend 
nationwide in drug courts in terms of recidivism.
    Mr. Tucker. Senator, with respect to recidivism, yes, we 
are seeing that nationwide. In fact, drug courts, one of the 
primary things that make them effective is their impact on the 
participants. And so 84 percent of graduates who have gone 
through the program remain drug free, for example, after being 
graduated--after the first year of graduation.
    With respect to the 2-year mark, 2 years out of having 
graduated, 73 percent of those participants have not been re-
arrested or charged with any serious crime. And this is true 
consistently with respect to the research and the data that we 
see.
    And so that is just another indicator of why this becomes 
so critical. The notion of sort of not just taking someone who 
has committed a crime but then getting them into treatment, 
trying to keep them in recovery, giving them the opportunity to 
get the support they need to stay in recovery and to be more 
productive citizens is, you know, what we are after. So the 
data suggests that we are in a position to have and repeat that 
success going forward.
    Senator Franken. Well, let us talk about the return on 
investment and where it comes from, because to me, as we are in 
this budget crisis and this deficit crisis--and we all 
recognize that there is one--we have to find ways in which to 
bring down costs to society and costs to the Government. So if 
you are reducing recidivism, you are reducing the number of 
people who are in prison. You are also reducing the crime, the 
costs to society. You are changing lives. People now who might 
be in prison have jobs, are paying taxes.
    I want to ask about one other thing, which is families, 
because to me one of the huge maybe overlooked aspect of 
addiction is the toll on families. And we have found a 
satisfying result from drug courts in Minnesota, that more 
families are staying together, are being reunited. In fact, in 
Dakota County, they found that children of drug courts 
recipients are being placed in foster homes far less often than 
children of other offenders. So to me that is a wonderful 
result.
    What impact do you think this has on families, both 
immediately and in the long term?
    Mr. Tucker. Well, immediately, I can speak at it from 
personal experience with respect to the role that I played when 
I was a police officer, and it is no different today. I spent a 
lot of time going into people's homes where there was domestic 
violence and a variety of other behaviors that were detrimental 
to the core of the family.
    One of the things that I think drug courts do and what we 
focus on through the National Drug Control Strategy, as we 
treat this as a public health issue as well as public safety 
issue, is to focus on ways in which we can provide the services 
and treatment that folks need. The challenges of someone who 
has a drug problem and who is an offender to the rest of the 
family we know is significant.
    I go to a lot of drug court graduations. I travel around, 
and I went to a drug court graduation several months back in 
Charlotte, Virginia, and sat next to, just coincidentally, the 
mother of one of--the sole graduate of that graduation, and we 
struck up a conversation. And she was clearly supportive of her 
son. She was clearly enamored about the fact that he was 
successful in meeting the conditions of being in the drug court 
and participating and getting himself on the right track to 
being clean. But at the same time, you could see that she was 
apprehensive. She clearly had been through a lot. But it really 
makes a huge difference, and if you have not attended a drug 
court graduation, I recommend that you do because you walk out 
feeling hopeful and renewed about the fact that the work that 
we do with drug courts really matters for sure.
    With respect to the cost, in terms of cost at the State and 
local level, when we compare traditional case processing in 
drug courts and--regular courts processing with drug court 
processing, we are saving a serious amount of money per 
individual because of some of the issues that you raise.
    For example, some of the research tells us that for every 
drug court participant, we have savings somewhere in the area 
of $1,400. We have additional savings that may approach $6,700. 
So we are roughly in the area of just over $8,000 in savings 
for participants who go through the program, who we remove from 
the criminal justice system, and the associated outcomes for--
the yield from the associated outcomes in all the other 
respects in terms of getting them back to work and making them 
productive really does have some financial benefit overall. We 
should continue----
    Chairman Whitehouse. Mr. Tucker, let me stop you there so 
we can go on to Senator Blumenthal.
    Senator Franken. Just let me say one last thing, and I have 
to leave and go to Energy so I will not be here for the second 
round. You talked about the hope these families feel. Hope is--
what is it?--fear that said its prayers. And these are 
inspiring things. Treatment does not always work. It does not 
always work. But I want to say that as we get past this current 
budget crisis right now, this debt crisis, this budget crisis, 
and we move on after that to start addressing our problems and 
start addressing long-term debt problems, this is a bipartisan 
thing. I wrote a letter to make sure that we keep funding for 
this, and I got bipartisan support.
    What is great about this is that this is something where we 
can address--there really is a return on investment on this, 
and it saves money, but it also saves lives, and I want to 
think everybody who is involved with this.
    I have to go.
    Chairman Whitehouse. Senator Blumenthal is recognized.
    Senator Blumenthal. Thank you, Mr. Chairman. I want to 
thank Senator Whitehouse for having this hearing, and I am 
going to be somewhat abbreviated in my questions because we do 
have another panel and there are other Senators waiting to ask 
questions, but not to indicate any brevity or shortness in my 
interest in this area, and I would like to follow up with you 
afterward on the very good work you are doing not only on drug 
courts but most particularly on veterans' courts.
    As you know, many of the brave young men and women coming 
back from service and sacrifice abroad in combat return with 
wounds that are invisible--post traumatic stress, traumatic 
brain injury--which in turn lead, in some ways predictably, to 
alcohol and substance abuse, domestic violence, all kinds of 
very serious and sometimes physically harmful activities. And 
for me, one of the most telling statistics as a member of the 
Armed Services Committee that I have heard is that about 30 
percent of those incidences of post traumatic stress or 
traumatic brain injury are undiagnosed. And so many of these 
young men and women go back into society and are candidates for 
the kind of violence that very recently was documented. You may 
have seen it in the New York Times article over the weekend by 
Erica Goode about Staff Sergeant Brad Eifert and his struggle 
with exactly these problems and the way that he was in a sense 
rescued from suicide by cop through a veterans' court, or at 
least treatment as a veteran.
    So my question to you is: Where would we look for the best 
models of these veterans' courts, whether they are separate 
courts or dockets or specific schedules or calendars for 
veterans' issues? Because I think the more we can do to spread 
the world, to spread the best practices, the better off States 
like Connecticut will be and our country.
    Mr. Tucker. Yes, Senator, I did see that article on 
Sergeant Eifert and actually was going to reference it in my 
remarks as well. I think it is a classic example, 
unfortunately, that repeats itself over and over again.
    I think with respect to your question, I think we have to 
look at all the courts. I think when we have the drug courts 
and how they function, I think each one has something different 
to offer perhaps in terms of its success. I think the 
research--and you may hear some more about this from Doug 
Marlowe when he testifies. But my sense is that we have to 
continuously evaluate to look at, examine those programs that 
are working, take from them the best practices, support those, 
and replicate those where we think it makes sense.
    It is also helpful as we look at these we learn a lot about 
what does not work so well. But I think with respect to the 
examples that I have seen with respect to the veterans' courts 
in particular, the coming together of the court personnel, the 
military services personnel, law enforcement personnel, the 
judges, and the veterans organizations both at the State and 
Federal level is the way to go. And so to the extent that we 
can keep that model, keep everyone informed, then I think we 
can continue to be effective in terms of the service provided.
    Senator Blumenthal. I appreciate your answer, and what I 
would like to do is for you, if you would, to provide me with 
maybe five of the best practices, what you regard personally as 
the five best examples of how the veterans' courts are working 
in the country, perhaps on a confidential basis, and maybe some 
of the best practices as well so that we can perhaps use them 
as models in Connecticut and elsewhere around the country.
    Thank you, Mr. Chairman.
    Chairman Whitehouse. A question for the record?
    Senator Blumenthal. Yes. Thank you.
    [The information appears under questions and answers.]
    Chairman Whitehouse. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Senator Whitehouse, 
for chairing this hearing and holding it today.
    Thank you, Mr. Tucker, for being here. We had a great event 
this morning to celebrate the work of drug courts, and I would 
note there were a number of Republican Senators there, and I 
think that just shows the bipartisan support for moving forward 
with drug courts.
    I see my former Congressman out there, Jim Ramstad, a 
former Congressman from the State of Minnesota, a Republican, 
and I would note that when Patrick Kennedy was splashed on the 
front page of the paper with his addiction problem, it was Jim 
Ramstad that went to stand by his side. And I think it shows us 
all--and was his mentor and his friend throughout his 
experience and throughout his experience in getting sober and 
going on to get married this last month. It shows again this is 
not a Democratic problem or a Republican problem; it is all of 
our problems.
    The numbers which my colleagues have mentioned are 
astounding: 75 percent of drug court graduates will not be 
arrested again. Compare that to 30 percent of the people who go 
through the traditional system. I have seen this firsthand in 
my State. I was a prosecutor for 8 years in our biggest county, 
the first drug court in our State. We now have 30 drug courts 
in our State, and I think that we all know the dollars and 
cents and the money that can be saved. But the reason so many 
people are here to support the concept of drug courts is not 
necessarily those numbers. It is the people we know. It is the 
teenager that can get their life back again. It is the family 
that can send their little kids out on the street corner 
without having to worry about drug crimes. And it is the addict 
who has a chance for another life, and so I want to thank you 
for the good work that you are doing.
    I did have a question about the dollars and cents because 
between the time we had this celebration and this hearing, I 
went to a budget meeting, and I know that a lot of my 
colleagues and I are very focused on that right now, and I 
think this actually can be a big part of it as we look at how 
we can save money and do good at the same time.
    Could you explain why drug courts save money? And what do 
you think is the most accurate estimate of the actual or 
potential savings?
    Mr. Tucker. First of all, Senator, it is good to see you 
again.
    Senator Klobuchar. It took me a lot of words for you to get 
to that point, but thank you.
    Mr. Tucker. The answer to your question relates to my 
earlier comment in response to Senator Blumenthal's question, 
and that is, it has to do with sort of what we see based on the 
research in terms of the general savings. Obviously, when we 
take someone out of the system, I mean, just the fact that we 
incarcerate, as we do in this country, more people than 
anywhere else in the world, and we have maybe 7 million people 
in the system, 5 million are on probation or some sort of 
community supervision. But having those folks out there rather 
than having them in the system saves us money. To the extent 
that we can shut down their return to the system obviously also 
saves us money.
    So those figures that I gave, the $1,400 per participant 
and the $6,700 in sort of associated outcomes as a result of an 
individual not remaining in our jails or our prisons is where 
we see the savings on a regular basis.
    Senator Klobuchar. One number I heard, the cost of 
participation is less than $7,000; the cost of incarceration, 
over $22,000. Would that be per year?
    Mr. Tucker. I would have to get back to you. I am not sure.
    Senator Klobuchar. I think it is.
    Mr. Tucker. I am not sure. I think it is a range, actually, 
but I am not sure whether it is annually. I suspect it would be 
in terms of how to measure it, but I can get a response for you 
on that.
    Senator Klobuchar. OK. Thank you.
    Mr. Tucker. I will give you something more specific.
    [The information follows:]
    Senator Klobuchar. Then I just had one last question about 
synthetic drugs and what you are seeing with those. We had a 
young man die in Minnesota, ordered it off the Internet, had a 
party, others almost died as well. Senators Grassley and 
Schumer and I have been working on a number of bills to include 
these types of substances on the list of illegal drugs. What 
are you seeing? I can tell you in our State we have seen a 
number of kids--you have never even heard of these things 
before, and they are at the emergency rooms, doubling and 
tripling what we have seen. The New York Times reported just 
this weekend that they had 3,470 calls about bath salts in the 
first 6 months of 2011 to poison control centers compared to 
303 calls in 2010.
    Mr. Tucker. Well, we are seeing a dramatic rise in such 
stimulants like that, bath salts and incense, the products that 
are sold that way. The Drug Enforcement Administration, as you 
may know, is focused on that and has begun to regulate some of 
the ingredients in some of those products. But I think the 
challenge is in some cases just knowing what is there. But we 
are, as you know, from the drug policy perspective at ONDCP and 
with our strategy, continuously trying to focus on the 
prevention side of this as much as possibly can.
    Senator Klobuchar. I think the education--and I know the 
Senator needs to end the hearing now, my part of it, but the 
education piece of it is going to be very important, and I 
think these bills are coming up on the docket next week, so 
that will be good.
    Thank you very much.
    Mr. Tucker. You are welcome.
    Chairman Whitehouse. Senator Coons.
    Senator Coons. Thank you, Senator Whitehouse, for convening 
this important hearing, and I will simply briefly say that I am 
from a State, Delaware, that has had a successful drug court 
since 1994, statewide since 1997. Like Senator Blumenthal, I am 
very interested in the progress of our veterans' court, which 
our Attorney General, Beau Biden, has just launched in the past 
year.
    I will ask, if I could, for a brief answer to the question 
about what sort of constructive role in your view nationally 
has police participation in drug courts played, has veterans' 
participation as mentors played in veterans' courts, and how is 
NDCI providing training and best practices that helps engage 
State and local government. I am happy to take a brief 
response.
    Mr. Tucker. Well, just simply put, collaboration is the 
name of the game, Senator, and I can tell you that we have wide 
support from our National police groups when it comes to drug 
court participation, and probation departments as well. And so 
the notion that--I think people have finally come to the 
realization that this model works, and so any way in which we 
can support it is what I think people are choosing to do, and 
it has been, I think, one of the reasons it has been so 
successful. So law enforcement across the board, I mean, we 
work with the International Association of Chiefs of Police and 
others, and so we should just continue to do that.
    Senator Coons. I just want to thank you for your 
recognition that addiction affects every family, every 
community across this country, and we need to have a balanced 
approach, balancing law enforcement with treatment and with 
community engagement, and I think the drug courts and your 
leadership have been critical to achieving that balance. Thank 
you.
    Mr. Tucker. Thank you.
    Chairman Whitehouse. Mr. Tucker, thank you very much for 
your service and for your testimony. We will excuse you now and 
take a minute or so recess while they change the table for the 
next panel. Again, thank you for your testimony and your 
participation in this hearing.
    Mr. Tucker. Thank you, Mr. Chairman.
    [Pause.]
    Chairman Whitehouse. I am delighted to welcome our second 
panel of witnesses, and we will just go right across the table, 
left to right from my side of the aisle here.
    Our first witness is Martin Sheen, who has appeared in more 
than 60 feature films, including ``Apocalypse Now'' and Martin 
Scorsese's ``The Departed,'' and has starred in numerous 
television shows. His performance on ``The West Wing'' as 
President Jed Bartlett earned him six Emmy nominations. Mr. 
Sheen has been a vocal supporter of drug courts for several 
years around the country and here in Congress, and we are 
delighted that he has taken the time to come and offer his 
testimony here today.
    Mr. Sheen.

       STATEMENT OF MARTIN SHEEN, LOS ANGELES, CALIFORNIA

    Mr. Sheen. Thank you, Chairman Whitehouse and distinguished 
members of the Subcommittee. It is a very rare privilege to be 
here today and advocate on behalf of drug courts. I would like 
to emphasize, however, that I am not a drug court professional 
nor am I an addiction specialist. I make the distinction 
because we all know celebrity, to a greater or lesser degree, 
is so often confused for credibility. For instance, I am not a 
former President of the United States though I played one on 
TV.
    [Laughter.]
    Mr. Sheen. My first exposure to drug courts began nearly 20 
years ago and opened my eyes to the incredible capacity of 
human beings to change. I have seen individuals mired in the 
depths of addiction transformed by drug courts. I have seen 
families reunited after years of estrangement due to a loved 
one's substance abuse. And while I prefaced my opening remarks 
confirming my amateur status regarding this critical issue, I 
was, however, directly responsible for helping create a drug 
court system in Berkeley, California, in 1996, along with 
Father Bill O'Donnell and Dr. Davida Coady, an addiction 
specialist. We called it ``Options,'' and our chief focus was 
the homeless and addicted street population in Berkeley. With 
the help of drug court Judge Carol Brosnahan and Berkeley 
Police Chief Bobby Miller, we began a treatment center and one 
sober living house. Today there are six sober living houses. 
They are all run by drug court graduates, and nearly 6,000 
people have gone through them and returned to their health, 
body, mind, and spirit.
    These miracles happen every day in drug court, and I 
believe that this country's greatest untapped resource is our 
addicted population. Every year, drug courts help save over 
120,000 seriously addicted people, bringing them from darkness 
to light and setting them on a course toward fulfillment, 
freedom, and enviable joy. But imagine for a moment the impact 
we could have if drug courts were available to all 1.2 million 
addicted individuals who would be best served by drug courts if 
one were available. Imagine the impact of 1.2 million people 
making up for lost time in their community and serving their 
families and their country. This is the purpose of drug courts, 
and this is why it is critical that Congress fund drug courts 
at a minimum of $88.7 million for fiscal year 2012.
    It is no secret that our current prison system provides 
little return on our investment. We spend over $70 billion on 
corrections, and it has done little to stem the tide of drugs 
and crime. Instead, addicted people cycle through the system at 
great expense to the public. Drug court stops that cycle. In 
drug court we have a proven budget solution that we can count 
on to cut drug abuse and crime. Every citizen benefits when one 
addicted person gets clean and sober.
    I would like to take a moment now to talk about drug courts 
serving veterans and the emergence of veterans' treatment 
courts. I spent some valuable time yesterday with Judge Robert 
Russell of Buffalo, New York. This distinguished and renowned 
jurist is among drug court's Hall of Fame. Two years ago, Judge 
Russell created the Nation's first veteran treatment court to 
restore the honor of these heroes. We ask so much of our men 
and women in uniform, and they ask so little in return. In 
fact, they are often the last to ask for counseling or 
treatment. It is our duty to care for our veterans when they 
suffer as a direct result of their service to our country.
    Today there are 80 veterans' treatment courts with over 100 
being planned. Drug courts and veterans' treatment courts are 
on the front lines of ensuring that when our veterans suffer 
from substance abuse or mental health disorders and get in 
trouble with the law, they have the opportunity for treatment 
and restoration. By helping restore their health, we give honor 
to their service.
    Our criminal justice system has been transformed over the 
last two decades by dedicated drug court professionals who 
believe that a blend of accountability and compassion can and 
should be the foundation for which we handle our addicted 
offender population. Now these same professionals are forever 
changing the way this Nation treats veterans when their 
invisible wounds of war lead them astray.
    Frankly, there is no better investment this Congress can 
make than drug courts and veterans' treatment courts. The time 
has come to reap the staggering social and economic benefits of 
expanding this proven budget solution.
    Thank you for the honor of appearing before you today. I 
appreciate your time and your service to our country.
    [The prepared statement of Mr. Sheen appears as a 
submission for the record.]
    Chairman Whitehouse. Thank you, Mr. Sheen.
    Our next witness comes as a personal favorite. The 
Honorable Jeanne E. LaFazia is chief judge of our Rhode Island 
district court. Prior to her appointment to the bench, Chief 
Judge LaFazia was an active civil litigator in private practice 
and a leader in the Rhode Island community, serving on the 
Rhode Island State Parole Board, the Commission on Judicial 
Tenure and Discipline, and serving as the Rhode Island Chair 
for the International Association of Defense Counsel. As chief 
judge of the Rhode Island district court, she has introduced 
the pilot program for the State's first veterans' court and 
convened an extraordinary roundtable for Attorney General 
Holder on his recent visit to Rhode Island. Chief Judge LaFazia 
graduated from Boston University and Suffolk Law School, and we 
welcome her here today.
    Welcome, Your Honor.

STATEMENT OF HON. JEANNE E. LAFAZIA, CHIEF JUDGE, RHODE ISLAND 
            DISTRICT COURT, PROVIDENCE, RHODE ISLAND

    Judge LaFazia. Good morning. Thank you, Chairman Whitehouse 
and other distinguished members of this Subcommittee. Thank you 
for affording me this opportunity to discuss something which I 
feel so passionately about: the expansion of veterans' courts 
throughout this country.
    Immediately prior to becoming chief of the Rhode Island 
district court, I spent 3 years on the arraignment calendar in 
Kent County. I noticed that both veterans and active members of 
the military were appearing in increasing numbers. Sometimes 
these individuals were immediately recognizable by their stance 
and occasionally by a uniform. Other times they would actually 
hide their status and attempt to quickly resolve the charge 
without further attention. I was also hearing from victims in 
domestic matters who would tell me that this defendant's 
behavior would not have occurred prior to his or her deployment 
or prior to multiple tours of duty, which is a phenomenon that 
we are seeing more of in this war than ever before.
    It became apparent that some of these men and women were 
returning from combat with injuries that were very real, but 
which were not visible to the naked eye. I also realized that a 
sentence imposed on a member of the military could have a 
harsher result than the identical sentence imposed on a private 
citizen. Rhode Island judges sometimes offer a filing on a 
first offense. The intent of a filing is to give the defendant 
a chance to eventually start over with a clean slate. On 
domestic charges, the court also imposes a No Contact Order, 
which prohibits that defendant from carrying a firearm. There 
is an exception to this prohibition for law enforcement, but no 
such exception exists for the military. Active military must be 
qualified to carry a firearm, so this military defendant stands 
to lose his or her job, their future, and perhaps their 
benefits--hardly what we intended when we sentenced that 
defendant to a filing.
    Recent statistics indicate that close to 1.7 million 
Americans have served in Iraq or Afghanistan. And while this is 
a most significant number, nationwide this presents as less 
than one-half of 1 percent of our National population. Rhode 
Island, however, has given more than its fair share to these 
statistics. The callback of Rhode Island's National Guard is 
the second highest in the entire United States. As of September 
30, 2010, the number of veterans living in Rhode Island who 
have served in the Gulf Wars is three times the national per 
capita average.
    Most of these veterans return home and successfully 
reintegrate into the fabric of society. But what about the 
small but increasing percentage who are unable to do so? 
Studies now indicate that one in five returning military will 
exhibit some symptoms of mental illness. Not all of them will 
become involved in the criminal justice system.
    ``No soldier left behind'' is a code which Americans have 
always been proud to live by. We do not desert our soldiers on 
the battlefield. Shouldn't this also be true on the home front?
    Do we not owe our returning soldiers a similar duty when 
they come home injured or affected in a way that has altered 
who they are and what they do? Especially if that injury causes 
or fuels behavior that puts them into the criminal justice 
system.
    These are men and women who were not drafted. They 
volunteered for this service. They put on a uniform, and they 
followed the American flag into combat to fight for and protect 
the fundamental rights and privileges that we as Americans 
enjoy every single day.
    Most people agree that we do have a duty. But what does 
that mean? How does it translate to the criminal justice system 
and to the role of the judiciary in these cases?
    In response, the Rhode Island district court, under a 
SAMHSA grant, is now a partner in implementing the first jail 
diversion program in Rhode Island for veterans. This grant has 
allowed Rhode Island to begin this important process, but it is 
only a beginning.
    Let me emphasize what this program or these programs does 
not mean. It does not mean that anyone will not be held 
accountable for their actions simply because of military status 
or even medical diagnosis alone. This is not a free pass.
    What this duty does mean is that we need to increase our 
focus on this group of people. We need to recognize them. We 
need to implement programs that will address their unique 
challenges and which will provide them with the tools and 
insight needed to become whole again, to reintegrate 
successfully into society. Veterans' courts are problem-solving 
courts.
    Rhode Island is in a unique position because it is a small 
State. We have tremendous collaboration in Rhode Island with 
law enforcement, community mental health providers, and other 
State departments. The Rhode Island National Guard has been 
actively involved and fully supportive.
    As we anticipate future drawdowns, the number of returning 
personnel who will require these services will undoubtedly grow 
substantially. The expansion of this program will allow us to 
fully address the various needs of these individuals and will 
allow us to include all individuals who enter the judicial 
system because of a service-related injury.
    We are ready and positioned to take on the responsibilities 
of a statewide veterans calendar. We have the network and the 
resources to make it successful and sustainable--an important 
word today, I think. I hope that we will see this in the 
relatively near future. For this, we do look to you, our 
leaders in Washington.
    I am proud to have the Rhode Island district court playing 
a leading role on this issue, and I thank you for the 
opportunity to discuss this today. I will happily answer any 
questions that you may have.
    [The prepared statement of Judge LaFazia appears as a 
submission for the record.]
    Chairman Whitehouse. Thank you, Your Honor.
    Our next witness is Douglas B. Marlowe, who is the director 
of the Division on Law and Ethics Research at the Treatment 
Research Institute as well as an adjunct associate professor of 
psychiatry at the University of Pennsylvania School of 
Medicine. Dr. Marlowe has published over 80 professional 
articles and chapters on the topics of crime and drug abuse and 
is on the editorial boards of the Drug Court Review and 
Criminal Justice and Behavior. He is a member of the board of 
directors of the National Association of Drug Court 
Professionals, where he serves as chair of the Research 
Committee and the Drug Policy Reform Committee, and we are 
delighted to have him here for his testimony.
    Professor Marlowe.

STATEMENT OF DOUGLAS B. MARLOWE, J.D., PH.D., CHIEF OF SCIENCE, 
LAW & POLICY, NATIONAL ASSOCIATION OF DRUG COURT PROFESSIONALS, 
                      ALEXANDRIA, VIRGINIA

    Mr. Marlowe. Thank you, Chairman Whitehouse, members of the 
Committee. It is really a great honor to be here. I know you 
have all been waiting for Martin Sheen and the chief judge to 
be finished speaking so you could hear from the scientist in 
the room about the facts and data related to drug courts.
    [Laughter.]
    Mr. Marlowe. But that is my job as Chief of Science and 
Policy for the National Association of Drug Court 
Professionals, to stay on top of the scientific research, which 
is no easy task because the last time I did a search on drug 
courts I found well over a thousand published studies of drug 
courts.
    Drug courts have been studied more intensely than any other 
criminal justice program. In fact, there are people in this 
room taking medications for cancer, diabetes, and other medical 
conditions that have less evidence of success than drug courts. 
According to the leading national universities' and research 
organizations, on average, all else being equal, drug courts 
will reduce crime anywhere from 10 to 26 percent. That is on 
average. The best drug courts will cut crime rates in half, 
which is unheard of in the criminal justice system.
    As a matter of cost effectiveness, on average, all else 
being equal, for every dollar invested in drug court, you will 
get $2.21 back from your investment. Now, how many of you are 
getting a 221-percent return on your 401(k)s at the moment? 
Drug courts that are treating high-risk and more serious 
offenders are returning $3.36 for every dollar invested, and 
the best drug courts are returning $27 for every dollar 
invested.
    The U.S. Government Accountability Office in 2005 concluded 
that drug courts reduce crime, but they wanted to know what 
else drug courts do besides reducing crime, so they launched 
the Multisite Adult Drug Court Evaluation. Those findings have 
just been published in the last few days. This was a national 
study of drug courts, located in every geographic region in the 
country. It involved over 1,200 participants in 23 drug courts. 
They found not only do drug courts reduce crime; but drug 
courts also reduce drug abuse; drug courts reduce family 
conflict; they improve family functioning, and these effects 
are associated with reduced domestic violence and child abuse. 
They also improve employment; and they improve annual income.
    We now have as good evidence as you are going to get on the 
effects of drug courts. If anybody tells you they have looked 
at the research on drug courts and they do not accept it, then 
they must reach the same conclusion about every other criminal 
justice and substance abuse treatment program in existence, 
because there is no other program that has equivalent evidence 
of success than drug courts.
    Some people will say that drug courts only have five to 
seven randomized controlled studies. Well, according to the 
FDA, you need two randomized controlled studies for a 
medication to be considered an evidence-based and a proven 
practice. Drug courts have many times that degree of efficacy. 
It is a highly proven intervention.
    Now, why a Federal role? Most crime is intra-State. Most 
crime is person on person, or person on property. It occurs at 
a single point in time in a single place. Drug crimes are 
interstate commerce. Everything that occurs in drug 
transactions and abuse--transportation, procurement, 
manufacturing, use--the effects of that are interstate if not 
international. That is why the Federal Government launched the 
War on Drugs over roughly four decades ago, and before that, in 
the Nixon administration there was an increase in demand 
reduction efforts. Drug abuse is a national event, it has a 
national impact, and, therefore, it needs a national level 
response.
    As far as veterans' treatment courts are concerned, 
veterans have always been a national priority, and the biggest 
field currently in the drug court movement is to treat veterans 
suffering from drug addiction and mental illness. As you have 
heard, approximately 80 percent of veterans coming in contact 
with the criminal justice system, are addicted and/or mentally 
ill, and that is what is driving their involvement in the 
criminal justice system.
    So I am happy to answer any questions, and I am happy to 
provide you with the proof and the scientific evidence for any 
of the facts that I have asserted. Thank you.
    [The prepared statement of Mr. Marlowe appears as a 
submission for the record.]
    Chairman Whitehouse. Thank you very much, Dr. Marlowe.
    Our final witness is David Muhlhausen. He studies criminal 
justice programs in the Heritage Foundation's Center for Data 
Analysis. Dr. Muhlhausen joined Heritage in 1999 after serving 
on the staff for this Senate Judiciary Committee. Welcome back, 
Mr. Muhlhausen. Prior to that he was a manager at a juvenile 
correctional facility in Baltimore. He holds a doctorate in 
public policy from the University of Maryland Baltimore County 
and a bachelor's degree in political science and justice 
studies from Frostburg State University.
    Welcome, Dr. Muhlhausen.

  STATEMENT OF DAVID B. MUHLHAUSEN, PH.D., RESEARCH FELLOW IN 
   EMPIRICAL POLICY ANALYSIS, CENTER FOR DATA ANALYSIS, THE 
              HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Muhlhausen. Thank you. My name is David Muhlhausen. I 
am a research fellow in empirical policy analysis in the Center 
for Data Analysis at The Heritage Foundation. I thank Chairman 
Whitehouse, Ranking Member Kyl, and the rest of the Committee 
for the opportunity to testify today on drug and veterans' 
treatment courts. The views I express in my testimony are my 
own and should not be construed as representing any official 
position of The Heritage Foundation.
    My spoken testimony will focus on three points:
    First, with out-of-control spending and surging public debt 
threatening our Nation's stability, increased Federal funding 
of State and local courts should not be a priority. By the end 
of this fiscal year, the Congressional Budget Office warns that 
the Federal debt will reach roughly 70 percent of gross 
domestic product. This will be the highest percentage since 
shortly after World War II. This is hardly a good time for 
Congress to increase funding for grant programs that subsidize 
the routine criminal justice operations of State and local 
governments. Instead, Congress should consider reforming the 
drug court discretionary grant program to focus entirely on 
reimbursing drug courts for the costs of serving recently 
returned combat veterans with substance abuse problems. This 
reform would get the Federal Government out of subsidizing 
routine operations and quite likely save taxpayer Federal 
dollars as well.
    Second, while a large number of drug court evaluations have 
been performed, many of these studies have significant 
shortcomings in scientific rigor. Before we can judge a drug 
court program to be effective, we first must understand the 
importance of selection. It can be astoundingly difficult to 
distinguish between what is working and what is not, and 
nowhere is this predicament truer than when it comes to the 
criminal justice system trying to change human behavior.
    For example, individuals volunteering for a drug court 
program may be more motivated than individuals not seeking 
entry. Such motivational factors are often invisible to those 
assessing effectiveness. Failure to account for these crucial 
factors can produce a misleading association between drug court 
participation and outcomes. Experimental evaluations, the gold 
standard of research designs, are the most capable of handling 
the problem of selection.
    In my review of the scientific literature, I was only able 
to obtain three experimental evaluations of drug courts. 
Clearly, more experimental evaluations are needed. The need for 
more experimental evaluations should transcend political party 
lines. Both Democrats and Republicans should agree on this 
issue.
    Third, while under some circumstances in particular 
locations drug courts may be more effective than traditional 
responses, Congress should carefully review the claims of 
effectiveness coming from advocates of increased Federal 
spending on drug courts. Three experimental evaluations and a 
particularly good multi-site quasi-experimental evaluation 
reviewed in my written testimony provide a mixed bag of 
evidence about effectiveness. Obviously, some drug courts are 
effective while others are not. Effective drug courts can 
produce cost savings, and some may even produce more benefits 
than costs. However, this rule is not universal for all drug 
courts.
    A relevant example is the cost findings of the newly 
released Multisite Adult Drug Court Evaluation performed by the 
Urban Institute. After comparing 23 drug courts to six other 
types of court interventions, the quasi-experimental evaluation 
found that drug courts produced an estimated average net 
benefit of over $2,000. However, this estimate is not 
statistically significant. In other words, policymakers cannot 
be sure that the drug courts participating in this evaluation 
produced more benefits than costs. The costs may actually 
outweigh the benefits. The estimate is simply too imprecise to 
draw strong policy conclusions. More details on the results of 
this evaluation and other evaluations in my testimony are 
available to you.
    Thank you for inviting me.
    [The prepared statement of Mr. Muhlhausen appears as a 
submission for the record.]
    Chairman Whitehouse. Thank you, Mr. Muhlhausen.
    I am going to, as Chair, be here until the end of the 
hearing, so rather than take up the other Senators' time, I 
will wait until the end, and I will yield to Senator Blumenthal 
and then whoever else is next.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for bringing together this really very, very impressive panel, 
impressive not only for its star power but its intellectual and 
scientific and persuasive power.
    I want to suggest that there is a danger here, which is to 
conflate veterans' problems and drug problems, and to see a 
drug court as also potentially a veterans' court. And I think 
what is so impressive about the work that you have done, Judge 
LaFazia, is that you have started to address not only the 
invisible wounds of post traumatic stress and the traumatic 
brain injury that can cause many of the addictive behaviors 
that result in criminal activity, but also to address the 
problems that are unique to veterans. And they can become 
addicted, but they also have other problems.
    And so I would like to invite you and others on the panel 
to perhaps talk about why we need to address separately the 
issues that affect veterans as opposed to simply opening drug 
courts that may deal with veterans' treatment issues.
    Judge LaFazia. I think there certainly is a lot of overlap, 
and that will involve both the cost factor of doing these 
programs, and also there is a huge overlap on the successes 
that we are able to celebrate. That being said, I think that 
the veterans have a number of unique issues that need to be 
dealt with, and I think some of the standard counseling that we 
provide for substance abuse issues, alcohol issues, and other 
issues are not always competent or able to address some of 
these underlying issues that veterans have to deal with.
    We have had tremendous collaboration in our project in 
Rhode Island. It is a small State. It lends itself to that. In 
addition to collaboration with law enforcement and our mental 
health providers and corrections and other State agencies, we 
have also had some great support from our legislature and our 
Governor this year. And we had a law signed into effect that 
allowed us for court-ordered counseling on DUI cases and 
domestic violence counseling. We now are able to do that 
counseling through the veterans association, and I think that 
makes a huge difference because they have a unique set of 
circumstances that most of us do not even have a point of 
reference for. And I think that you need to have people 
involved in these projects who have that background, have that 
insight, that understanding, and know how to get to those 
specific firing issues.
    Senator Blumenthal. And making use of veterans themselves 
in providing that kind of counseling and aid.
    Judge LaFazia. Yes, and on two fronts. One of the other 
elements of veterans' courts that I think is critical for 
success is the use of mentors in the review process. And we are 
in our infancy stages in Rhode Island. We are now developing 
our mentor group. But I think not only from the professional 
counselors with the military background and military insight, I 
think you also need this support from a marine who can speak 
marine talk to a fellow marine. Whatever the branch may be, you 
need to have people who have been there, walked the walk, 
talked the talk, and come back and help you through it.
    Senator Blumenthal. You know, I would like to invite any 
members of the panel to do what I thought that New York Times 
piece did so well, which is to give a face and a voice to the 
veterans' issues. You know, specific instances of a veterans' 
court working for a veteran I think is very powerful, as the 
New York Times piece was, in depicting how a specific docket or 
calendar or channel for providing justice to a veteran can help 
address the specific and unique problems that veterans may 
face.
    Mr. Marlowe. Can I take a stab at that?
    Senator Blumenthal. Sure.
    Mr. Marlowe. It takes a tremendous amount of conditioning 
to get somebody ready for war. Our natural inclination is not 
to put ourselves in danger. Our natural inclination is not to 
harm other people. Our natural inclination is not to follow 
rigid authority. Our natural inclination is not to be 
constantly vigilant for threats everywhere we go. We have to be 
taught and conditioned to do that over months and months, if 
not years in the military. We have known that since the 
beginning of war.
    What we have not known is that you then must be de-
conditioned or prepared not to be hypervigilant, not to be 
overly obedient to authority when you return to society where 
those are undesirable traits. Mix that with trauma and 
substance abuse, you conflate those problems.
    So it is very much a new syndrome. It is not a drug court. 
It is not a mental health court. It is a re-entry program for 
people returning to civilian life who have been wounded and 
damaged. That is what veteran courts understand by using 
veteran peers and veteran mentors, and the Veterans 
Administration services. These are people who have been through 
that process, and they either had difficulty and learned 
through their dysfunction, or they have been trained and they 
come from that world and they understand. So it is a 
fundamentally different animal than these other programs.
    I am here to tell you, we have always seen huge numbers of 
homeless vets and vets in the criminal justice system after 
war, and we are seeing it now like we have seen it every time 
before, and we have multiple wars. So these veterans' courts 
need to ramp up and be ready quickly for a large influx.
    Chairman Whitehouse. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Mr. Sheen, I want to thank you for following in the 
footsteps of many former Presidents when they leave the Oval 
Office or leave the Oval Office set to pursue very important 
causes, and I just wondered why you had many things that you 
could have pursued as your cause and why you chose drug courts.
    Mr. Sheen. Well, thank you, Senator. I would just say, 
quite frankly, that is an extension of my work with the peace 
and justice community. Social justice, it is, I think, 
incumbent on all of us to participate in, to bring healing 
where we can, to bring understanding, to bring some light in 
areas where there is a great darkness, and this was just a 
natural progression of my work in the peace and justice era.
    Dr. Marlowe's description is quite extraordinary and gets 
right to the point of what Senator Blumenthal was talking 
about. I read that Times article yesterday, and as I mentioned, 
I was with Judge Russell yesterday, who initiated that first 
court, and he is quoted in that article about that gentleman 
and the parameters surrounding that horrible situation when he 
was in the woods out in Michigan with a gun and there were 
officers surrounding the area and felt they were being shot at 
and their lives were in danger. And this veteran, this fellow 
is alive and is getting help now, and those officers have 
actually dropped all their charges as well. It is an 
extraordinary level of compassion and understanding about what 
that guy in the woods alone with a gun was going through. He 
was back in Iraq, three tours, he lived with that extraordinary 
anxiety and tension and adrenaline.
    We have no idea, no comprehension at all of what that is 
like in a combat zone, and, we are in three countries now where 
it is just everyday normal life, and a lot of these men and 
women are serving multiple tours.
    So we have to be aware of that, and, it is going to cost 
us. But anything of great value is going to be costly; 
otherwise, you are left to question its value. When I think of 
the work that drug courts are doing, I am reminded of the old 
Irish tale about the guy who came to the gates of heaven and 
asked to be let in, and St. Peter said, ``Of course, just show 
us your scars.'' And the guy says, ``I have no scars.'' And St. 
Peter said, ``What a pity. Was there nothing worth fighting 
for? ''
    I cannot think of anything in the social justice and peace 
era today more worth fighting for than drug court. It just goes 
to the center of this issue in a deeply compassionate, 
understanding, and humane way, and I think it is the only way 
out, frankly.
    Senator Klobuchar. Thank you very much.
    Mr. Sheen. Thank you, Senator.
    Senator Klobuchar. Dr. Marlowe, do you want to respond to 
some of the things that Dr. Muhlhausen had pointed out? When we 
look at this cost-effective issue, as we are engaging in a 
process right now in Washington where we have to bring our debt 
down and we are looking at smarter solutions in the criminal 
justice area, I have always found that people can be surprised. 
Sometimes there are ways to spend less money but actually get 
better results. Could you talk about that?
    Mr. Marlowe. Yes. The research on the cost effectiveness of 
drug court is actually pretty powerful research conducted by 
independent organizations, and they have found, as I said 
earlier, that for every dollar invested, the average--if I do 
not know anything else about a drug court, I just know it is a 
drug court. If I have to guess how much I am going to get back 
for my money, for every dollar that I put in, I am going to get 
about $2.21 back. And if it is a particularly good drug court, 
I may get $3, $5, $12, $27 back.
    Now, as for the Multisite Drug Court Evaluation that was 
just published, they found that the average net benefit for 
drug court was just short of $6,000 per participant. Now, if 
drug courts are treating 120,000 participants and they are 
turning an average return on investment of $6,000 per 
participant--I might need a calculator to figure out how much 
money we would be saving, and if we hit the 1.2 million people 
that we should be serving, I would definitely need a calculator 
to figure out how much money we are saving.
    The way we do it now is we use incarceration as our primary 
response. It has no effect, but at least it has the saving 
grace of being enormously expensive. We have drug courts which 
are about, in some respects, a tenth of the cost of 
incarceration and many times better.
    So I actually would suggest to you that it is pretty common 
that doing too much tends to make people worse and also tends 
to cost too much money. If you bring a sledgehammer to knock in 
a thumb tack, you are going to do more damage than you need to, 
and picking a better hammer and a better tool and doing a more 
intelligent job is going to be a lot less expensive and is 
going to save you money.
    These are not speculative cost savings. These cost savings 
occur in the same budget year or the immediately ensuing budget 
year. You get your money back within 24 months. That is money 
to the criminal justice system. I am not talking about, you 
know, foster care, saving children from losing their families. 
I am not talking about all those distal costs. I am talking 
about money back to the criminal justice system because he is 
not in jail, the police are not out arresting him. I do not 
have to have ten violation of probation hearings. I do not have 
to waste all the costs of having the prosecutor and defense 
counsel in the courtroom. I am saving all of that money right 
away. That is why drug courts have expanded as much as they 
have. The Federal Government seeds a program--it is rare for 
the Federal Government to seed a drug court and the State or 
locality does not pick it up after the Federal funding ends. 
That is a rare event when they do not pick it up. They are not 
picking up the costs out of inertia. They are not doing it out 
of the goodness of their hearts. They are doing it because they 
are saving an enormous amount of money.
    Senator Klobuchar. I just wanted to end--I will maybe have 
one more question when we come back and talk about the drug 
court graduations, and I have been at a number of them. And I 
know when we first started our drug court, there were a lot of 
issues with the police not supporting it, and we actually made 
some changes with taking some of the gun crimes out of there 
and some of the things where I believe prison was appropriate. 
And over the years, we gained the support of the police for 
that court, and it made a big difference because they realized 
there was actually follow-up as opposed to someone just being 
lost in the system because they had what was perceived as a 
more minor crime, but it was not minor for those kids that were 
standing out there trying to go to school and then get people 
on drugs getting in their path and potentially getting them on 
drugs. And what happened was that they started to see that with 
the drug court there was actual follow-up. They would have to 
come in. They would have to have the drug test. There would be 
a stick at the end if they did not comply. And it just was 
interesting to see the evolution with law enforcement through 
that time when I was county authority, so thank you very much.
    One more thing, yes.
    Mr. Marlowe. Just one point about it. Remember I said some 
drug courts cut crime rates in half? The best drug courts? 
Those are the ones that have law enforcement on their team. 
That is one of the biggest findings, that law enforcement on 
the team increases the outcomes multi-fold, and I think for the 
reasons you suggest.
    Senator Klobuchar. Thank you.
    Chairman Whitehouse. The dark cloud of budget and debt 
concerns that lies over Washington right now is a very real 
thing, and it is very important. But I would like to ask Mr. 
Sheen and Judge LaFazia, who seem to have the most personal 
experience with these courts, to talk a little bit about the 
intangible and non-monetary value that you see in what happens 
in a drug court and what we hope will also happen in a 
veterans' court as the individual involved has to come to the 
difficult recognition and reconciliation of the wreckage that 
they have often made of their own lives, realize that a 
transformation is necessary, and start the hard and courageous 
path of recovery. That is a rather special human 
accomplishment, and I would like you to put that in the context 
of what you see every day in the drug courts.
    Mr. Sheen. Thank you, Senator. My own personal experience 
with drug court, besides lobbying here in Washington on 
occasion, is confined to the State of California, which is no 
small spot on the map, but I have been a supporter of the 
Compton drug court, south of Los Angeles, with Judge DeShazer, 
as well as the downtown drug court in Los Angeles and the Bay 
Area courts, including Judge Stephen, who is here now--sorry, 
Stephen Manley. He will never forgive me. I am sorry. I have 
been a great supporter of his court as well as the Berkeley and 
Oakland courts.
    What I see so often are the drug courts focus on low-
income, homeless, fixed-income people on the short end of the 
ladder. Very often they have public defenders. The across-the-
board rule is that they are very rarely represented by a lawyer 
that they have to pay. They are generally all wards of the 
State at that point. So when they stand in front of a 
compassionate, understanding judge and they are offered a very 
fundamental choice: ``Mister, I am going to put you in the 
State penitentiary for 3 years, or I am going to give you an 
opportunity to turn your life around in treatment that you can 
start today. What is your choice? '' Ninety-nine percent of 
those defendants will say, ``Give me the treatment.''
    When you see them come in, I mean, they are right off their 
mug shots, you know. When they come dragging into court, they 
are still wearing the orange jumper, and they are generally in 
chains. Then you come back over a period of months, and you 
witness this gradual, extraordinary change where a human being 
is emerging from this chaos, this baggage that has been 
discarded, thrown away, where you see that they had no self-
motivation, that they were totally dependent on the next hit or 
the next shot or the next drink.
    To see that development of a human being flower and reach 
its potential and then turn to the community after graduation, 
which usually takes a year of very hard, intense rehabilitation 
and 12-stepping, and begin to serve those people coming out of 
the cages in the orange jumpers and in the shackles, it is that 
turn toward the brother, the sister that is just coming out of 
the cage, and the look that they have with each other, it is 
like what veterans have that Dr. Marlowe was talking about. 
There is a jailhouse dialog. There is an understanding, a 
street dialog. There is a drug culture. And when it is broken, 
that has a miraculous effect.
    You know, the old saying is, ``All you need for an AA 
meeting are two drunks, a pot of coffee, and a lot of 
resentment.'' And that really has not changed. It is a deeply 
personal contact with one drug addict talking to another one 
that has come out of that same cell and that same uniform. And 
the hope, the possibility of returning to their humanity and 
then the service back to the community.
    The last step in all 12-step programs is we reach out to 
those still out there, and it is said that the only way to keep 
anything of real value is to give it away with love. And that 
is the basic, fundamental work of drug court.
    Chairman Whitehouse. Judge LaFazia, hold that thought and I 
will come back to you. But my time is up, so we go back to 
Senator Blumenthal for a second round, and that will be my 
question in our second round to you.
    Senator Blumenthal. Thank you, Mr. Chairman.
    You know, I would like to follow up on some of the answers 
that have been given, especially the description of the 
training and preparation that goes into preparing a warrior to 
go into particularly modern-day battle where people come back 
from explosive situations that they might have even survived in 
past wars, and come back with wounds that are undiagnosed and, 
therefore, untreated.
    And so I think my question is: How do we prepare the 
courts, the law enforcement professionals, and others who are 
involved in this system for dealing with those individuals who 
may be within their jurisdiction and they may not fully 
understand?
    Mr. Marlowe. The armed services have training curricula and 
interventions specifically for this purpose, training law 
enforcement, training judges. First of all, how do you 
recognize an invisible wound? How do you recognize somebody who 
has post traumatic stress disorder? What do you look for? What 
are the symptoms? What do you ask people to identify? The 
reality is all you have to do is ask the right questions, and 
in 3 to 5 minutes you will know. But if you do not ask those 
questions, you absolutely will never know.
    Senator Blumenthal. And what are the right questions?
    Mr. Marlowe. Asking somebody if they get startled. Do you 
ever find that you get startled? Does anything make you, you 
know, like all of a sudden you turned quickly? If there is a 
slight movement in the courtroom, watch the veteran in the 
courtroom when there is some movement in the back of the room, 
and they turn to that movement because if they did not turn to 
that movement in Afghanistan or Iraq, they could very well be 
dead. In the courtroom what they may very well have done is set 
up an altercation or a negative situation. So you are looking 
for that startled response, you are looking for that 
hypervigilance, and you are looking for the hollowness.
    When you are that damaged, when you are that broken, when 
you feel that bad, you are not sure anybody can help you. In 
fact, you are pretty sure nobody can. You are pretty sure you 
are probably going to die, and you are not entirely sure you 
care. Looking for that broken, empty affect in people, almost 
the apathy, sort of like whatever happens happens kind of thing 
when you push on it, those are not hard to diagnose. They are 
not hard to detect, and we can train very reliably law 
enforcement and judges and police to do it. But if they are not 
trained, they do not see it. And so they think the guy is just 
being aggressive when he is really not. He is startled. They 
think the guy is being a wise guy and not answering him, when, 
in fact, they are just being obedient to a superior in uniform. 
They need to be trained, they need to be sensitized to it.
    I have a colleague who does it for the Navy. I just met 
somebody here in DC at our NADCP conference who does it for the 
Air Force. There are training curricula. We need to get it out 
to the judges in every State and every county, and we can do 
that.
    Senator Blumenthal. Judge, did you have anything to add?
    Judge LaFazia. I do not want to repeat what he said, but in 
Rhode Island, our law enforcement for a couple of years now 
have been participating in something that we call a first 
responder program, which was originally initiated to allow them 
to address mental health issues right at the beginning of the 
scene, and they are trained to defuse dangerous situations. And 
now into that program we have put a component on recognizing 
veterans and the veterans' issues in order to de-escalate it at 
the very beginning.
    I think the training is critical for every stakeholder 
involved in this process, but in addition to the training, I 
think that public education is also important, particularly 
from a court's point of view on some of these cases. There is a 
ripeness for negative public perception. There is an issue out 
there or a potential for people to think this is a free pass, 
for people to think that people are not being held accountable. 
And there is a safety aspect part of it. There was mention 
before as to the DUIs which play a very big role in all of 
these courts, driving under the influence. In Rhode Island, we 
call them DUIs. They are ripe for public scrutiny when you 
bring somebody through this and they get taken out of the 
criminal justice system or they get a lesser sentence. If that 
person re-offends--and that possibility is always there, and 
God forbid somebody is injured, that will come right back to us 
on the front page of the paper. So you need to have some more 
public understanding as well as training for the stakeholders.
    Senator Blumenthal. And probably some training for the 
State legislators and Congressmen as well.
    Judge LaFazia. And that also, I suppose, yes.
    Senator Blumenthal. Thank you.
    Judge LaFazia. Thank you.
    Senator Blumenthal. Thank you, Mr. Chairman, and I would 
like to submit for the record later a copy of the New York 
Times article that has been referenced a couple of times by Mr. 
Sheen and Dr. Marlowe and the previous witness, if I may.
    Chairman Whitehouse. Without objection, it will be included 
in the record.
    [The article appears as a submission for the record.]
    Chairman Whitehouse. Let me go back to Judge LaFazia, if 
you wanted to add anything to Mr. Sheen's remarks, and let me 
also ask you: How has it been dealing with the Veterans 
Administration in terms of the coordination with this 
particular means of serving veterans?
    Judge LaFazia. The Veterans Administration has played a 
critical role in this project in Rhode Island from the 
beginning. They have been supportive in every step of the 
process, including confirming identification of veterans if 
they get a call from police departments to the roles that they 
are playing in the court, the services that they are providing. 
They have been excellent on emergency care, on getting people 
in very, very quickly for assessment. So they have been a 
wonderful partner in this project.
    Chairman Whitehouse. They get it.
    Judge LaFazia. They get it. They absolutely get it.
    Chairman Whitehouse. And they play well with others.
    Judge LaFazia. And they do play well with others, and they 
have been cooperative and supportive and have had some good 
initiatives that they themselves have brought to the table for 
us.
    The one thing that I would add to what Mr. Sheen said is 
that when these veteran defendants are coming into the court 
one of our biggest challenges has been to identify them, 
because many of them do not want to be identified as military 
or veterans. There is a shame element that accompanies them, 
and they have come from a background of rules and regulations 
and living and respecting those rules and regulations, and now 
they have found themselves in a very different situation. So 
that has been one of the challenges that we have had to deal 
with.
    They have, however, been very, very motivated. Most of them 
have remembered what their family lives were like beforehand, 
what their lives in general were like beforehand, and they have 
been very, very motivated to get into the programs. They have 
welcomed the treatment that has been given. There is nothing 
perhaps that motivates people like finding themselves in the 
criminal justice system. And when that option is given, it 
motivates and it works. And I will be happy to celebrate any 
motivation and any success story that is there.
    Chairman Whitehouse. Senator Klobuchar.
    Senator Klobuchar. Very good. I just had one question, and 
I wondered if any of you can answer it. We have significant 
Native American populations in our State, and I wondered to 
what extent drug courts are serving Native American 
populations, and if it is not very high how that could change. 
Anyone?
    Mr. Marlowe. There is a number of what are called tribal 
healing to wellness courts. These are tribal courts, so they 
are not part of the U.S. court system. They are a separate 
court system, and they use what are called healing to wellness 
principles, so it is a administered by community elders, and 
involves a lot of community-based interventions, a lot of 
emphasis on spirituality, you know, our history and how what 
has happened to us in our history has contributed to our lot 
and to the devastation of our community. There is a lot of 
emphasis on giving back, a lot of restitution.
    NADCP does training for them. We do technical assistance. 
We have members from the tribal community on our board. They 
are at our conferences, and they are very active parts of the 
drug court community, the drug court world.
    Now, do we need more of them? Absolutely. Probably in the 
tribal community we are hitting probably 5 or 10 percent of the 
problem, like we are hitting 5 or 10 percent of the problem 
everywhere. But we have the knowledge, and the skills to do so.
    Senator Klobuchar. Anyone else?
    [No response.]
    Senator Klobuchar. All right. Thank you.
    Chairman Whitehouse. All right. Let me call the hearing to 
a conclusion. I want to thank each of the witnesses for their 
testimony here today and for their contribution to our common 
effort to pursue the types of efficiencies, to put it coldly, 
and transformations, to put it a little bit more enlivenedly, 
that the drug court mechanism can provide and to expand that 
mechanism of community support and finding alternatives to 
direct veterans back out of the criminal justice system and in 
an effective way.
    So I really appreciate the testimony of everyone and the 
presence of so many people who have worked so hard on this 
issue in the room as well.
    So as I said earlier, the record of the hearing will stay 
open for an additional week, and if anybody wishes to add to 
it, they just simply need to send in their materials, but 
subject to that, the hearing is adjourned.
    [Whereupon, at 12:11 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions follow.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
